SSM

CARLOS SOLTERO, Partner
carlos@ssmlawyers.com
512-422-1559

LAWYERS

March 23, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Ariana M. v. Humana Health Plan of Texas, Inc., No. 19-980
Dear Mr. Harris:
Pursuant to Rule 30.4, Respondent Humana Health Plan of Texas, Inc.
(“Respondent”) seeks a thirty-day extension to file its Brief in Opposition to Petitioner
Ariana M.’s petition. The Petition was filed on February 5, 2020, and Respondent
filed its initial waiver on March 1, 2020. The Court requested a Response on March
16, 2020, with a due date of April 15, 2020.
I am Counsel of Record for Respondent and respectfully request a thirty-day
extension of that deadline, from April 15, 2020, to May 15, 2020. This request is
necessitated by several factors. First, over the last week, both Respondent’s
employees and undersigned counsel have experienced delays and inefficiencies
related to COVID-19, as we have transitioned to telework environments. Second,
Respondent is consulting with additional practitioners who we anticipate will serve
as co-counsel in preparation of the Brief in Opposition.
Accordingly, Respondent respectfully requests a thirty-day extension, to May
15, 2020, to deal with these contingencies. Thank you for your attention to this
matter.
Respectfully submitted,

Carlos Soltero
COUNSEL FOR RESPONDENT

SOLTERO SAPIRE MURRELL PLLC
7320 N. MoPac Expy, Suite 309 Austin, Texas 78731
T. 512-422-1559 F. 512-359-7996

SSM

Page 2
The Honorable Scott Harris
March 23, 2020

LAWYERS

SERVICE LIST
COUNSEL FOR PETITIONER:
Elizabeth Hopkins, Counsel of Record
Lisa S. Kantor
KANTOR & KANTOR, LLP
19839 Nordhoff Street
Northridge, CA 91324
(818) 886-2525
ehopkins@kantorlaw.net
lkantor@kantorlaw.net
Amar Raval
BERG PLUMMER JOHNSON & RAVAL
3700 Buffalo Speedway
Suite 1150
Houston, Texas 77098
(713) 526-0200
araval@bergplummer.com

